                                    U.S. Small Business Administration

                                        Office of Inspector General

                                          Washington, D.C. 20416



                                                                                                  REPORT NUMBER 13-19



D!TE:             September 27, 2013

T O:              Jonathan Carver, Chief Financial Officer

SUJET:          Evaluation of S!’s Implementation of the GPR! Modernization !ct of 2010


This report presents the results of our review of the Small usiness !dministration’s implementation of
the Government Performance and Results Act Modernization Act of 2010 (Modernization Act).
The objective of this evaluation was to determine if the SBA met statutory reporting requirements of the
Modernization Act1 in its 2014 Agency Performance Plan and 2012 Agency Performance Report.
To conduct our review, we evaluated the S!’s Performance Management reporting to include its 2013
and 2014 Agency Performance Plans, 2011 and 2012 Agency Performance Reports, and Agency
Quarterly Performance Update presentations. The OIG also evaluated a limited sample of program
performance indicators to understand how performance information is reported to the SBA
Performance Management Office. We performed this review in accordance with Quality Standards for
Inspection and Evaluations issue by the Council of the Inspectors General on Integrity and Efficiency.

We found the SBA to be generally compliant with the Modernization Act’s reporting requirements;
however, we did identify omissions in a few areas. We have made one recommendation to help improve
the S!’s Modernization !ct Reporting.


Background

In 1993, Congress passed the Government Performance and Results Act (GPRA), which requires federal
agencies to engage in project management tasks such as setting goals, measuring results and reporting
their progress. In order to comply with GPRA, agencies produce strategic plans, performance plans, and
reports on their performance. In 2010, Congress enhanced GPRA with the adoption of the GPRA
Modernization Act (Modernization Act), which helps agencies to focus on their highest priorities by
utilizing Agency Priority Goals. Guidance for complying with the Modernization Act is provided via Office
of Management and Budget (OMB) Circular No A-11 (August 2012). Part 6 of A-11 provides specific
instructions to government agencies on how to report on their performance measures to the OMB and
Congress.




1
 The statutory requirements are described in OMB Memorandum M-11-31, Delivering an Efficient, Effective, and Accountable
Government and OMB Circular A-11, Part 6 (issued August 2012), Preparation and Submission of Strategic Plans, Annual
Performance Plans, and Annual Program Performance Reports.
Results

Our review indicated that the SBA adhered to most of the requirements set forth in OMB Circular A-11,
Part 6. We observed that the 2014 Agency Performance Plan, 2012 Agency Performance Report, and
Agency Quarterly Performance Update presentations followed general guidelines. However, our review
also found opportunities for improvement. Enhancements in the following areas would enable the
agency to fully comply with all reporting requirements:

   	 Modernization Act guidance requires agencies to identify Management Challenges and provide
      planned actions, performance indicators, and performance goals to resolve the Management
      Challenges within their Agency Performance Plan. Management Challenges are the agency
      programs and activities that pose significant risks, including those that are particularly
      vulnerable to fraud, waste, error, mismanagement, or inefficiencies. While the SBA OIG has
      published its annual report on the Most Serious Management and Performance Challenges
      facing the Small Business Administration, the SBA did not address the Management Challenges
      in their 2014 Agency Performance Plan, as required.

   	 Strategic Objectives reflect the outcome or management impact the agency is trying to achieve.
      Modernization Act guidance requires agencies to include at least one performance goal for each
      Strategic Objective. However, the SBA has only identified performance goals for 6 of the 12
      Strategic Objectives listed in their 2014 Agency Performance Plan and 2012 Agency Performance
      Report. The Strategic Objectives without required performance goals include:

             o	 1.6: Strengthen outreach to underserved communities and underserved populations
             o	 2;2: Invest in SB!’s employees so they can effectively serve small business
             o	 2.3: Mitigate risk to taxpayers and improve oversight across SBA programs
             o	 3.1: Collaborate with other agencies to strengthen the delivery of programs, resources,
                and services
             o	 3.2: Foster a small business-friendly environment by encouraging federal agency
                awareness about the impact of unfair regulatory enforcement and compliance efforts,
                reducing burdens on small business and improving small business research
             o	 3.3: Promote the availability, analysis, and dissemination of the most current, accurate,
                and detailed statistics possible on small business.

          Without performance goals, the SBA is not able to measure progress towards achieving their
          Strategic Objectives.

   	 Modernization Act guidance requires agencies to designate a person to lead, oversee and be
      accountable for the implementation of each agency Strategic Objective. The SBA did not identify
      Goal Leaders for any of its Strategic Objectives in the 2014 Agency Performance Plan.

   	 Agency Priority Goals (APGs) are a new reporting requirement under the 2010 Modernization
      Act. These APGs are chosen from a subset of agency performance goals and reflect the agency’s
      highest priorities as determined by the agency head. Further, the guidance requires the agency
      to discuss APG progress in their Annual Performance Report. While the S!’s four APGs are
      tracked on Performance.gov, the SBA did not include any of its Agency Priority Goals within the
      2012 Agency Performance Report.

                                                     2

    	 Modernization Act guidance requires agencies to identify performance goals changed or
       dropped since publication of the previous year’s Annual Performance Plan, if such changes were
       approved by OMB, and the reasons for the changes. The SBA did not identify or explain the
       reasons for dropping two performance goals2 between the publication of the 2011 and 2012
       Agency Performance Report.


Conclusion

The objective of this evaluation was to determine if the SBA has met statutory reporting requirements
of the Modernization Act as described in OMB Memorandum M-11-31, Delivering an Efficient, Effective,
and Accountable Government and OMB Circular A-11, Part 6 (August 2012), Preparation and Submission
of Strategic Plans, Annual Performance Plans, and Annual Program Performance Reports. We found the
S! generally compliant with the Modernization !ct’s statutory reporting requirements. Further,
implementation of the additional provisions of the act identified in our findings and summarized in our
recommendation will provide the SBA with additional tools for planning, communicating priorities and
focusing agency action.


Recommendation

We recommend that the SBA include in their 2015 Agency Performance Plan and 2013 Agency
Performance Report all requirements, as described in the latest version of OMB Circular A-11, Part 6
(issued July 2013), required information, specifically:

        Identify planned actions, performance goals, indicators and milestones used to measure
         progress toward achieving Management Challenges.
        Identify a limited number of long-term performance goals for each Strategic Objective included
         in the strategic plan.
        Identify the agency official’s title and the organization responsible for the achievement of each
         Strategic Objective.

        Identify which performance goals are Agency Priority Goals.

        Identify performance goals changed or dropped since publication of the latest Annual 

         Performance Plan, if such changes were approved by OMB, and the reasons for the changes.

!gency omments and OIG Response

On !ugust 20, 2013, we provided a draft of this report to the hief Financial Officer and Performance
Management Office. On September 18, 2013, the Office of Inspector General received a response from
the hief Financial Officer. The hief Financial Officer concurred with the recommendation listed above.
The full text of the S!’s response is included in !ppendix I to this report.



2
 Goals dropped: 1) The SBA will increase the average hours of counseling per client for all OED resource partner programs by
two percent, and 2) In order to promote innovation along with commercial success, the SBA will target a TBD percent
commercialization rate for SBIR awards in FY 2013.
We appreciate the courtesies and cooperation of the Office of the Chief Financial Officer and
Performance Management Office during this audit.

                                                  ***



/s/
Robert !. Westbrooks
Deputy Inspector General
                                                                                Appendix I
                               U.S. SMALL BUSINESS ADMINISTRATION

                                     WASHINGTON, D.C. 20416




To: 	   Robert A. Westbrooks
        Assistant Inspector General for Auditing


From: 	Jonathan I. Carver      /s/
       Chief Financial Officer


Date: 	 September 18, 2013

Re:	    Response to Draft Report on the “Evaluation of SBA’s Implementation of the GPRA
        Modernization Act of 2010”

In the subject report, the Office of Inspector General finds the “SBA to be generally compliant
with the Modernization Act’s requirements; however we did identify omission is a few areas.”
The report further states that they had made one recommendation (five parts) to help improve the
SBA’s Modernization Act Reporting.

Response to Draft Report

Background

The report states that OCFO adhered to most of the requirements set forth in OMB Circular A-
11, 1 Part 6. The report further states that “the 2014 Agency Performance Plan, 2012 Agency
Performance Report, and Agency Quarterly Performance Update presentations followed general
guidelines.”

The OIG recommended enhancements in the following areas that would enable the agency to
fully comply with all reporting requirements:

   1.	 The SBA did not address the Management Challenges in their 2014 Agency Performance
       Plan.
   2.	 A performance goal was not identified for each strategic objective.
   3.	 The SBA did not identify Goal Leaders for any of its strategic objectives in the 2014
       Agency Performance Plan.
   4.	 SBA did not include any of its Agency Priority Goals with the 2012 Agency Performance
       Report.


                                                   5

   5.	 The SBA did not identify or explain the reasons for dropping two performance goals
       between the publication of the 2011 and 2012 Agency Performance Report.



Management’s response to the recommendation in the draft report is noted as follows:

   1.	 Identify planned actions, performance goals, indicators and milestones used to
       measure progress toward achieving Management Challenges.

       OCFO concurs with this recommendation. To the extent possible, we will include this
       information in future Agency Performance Plans.


   2.	 Identify a limited number of long-term performance goals for each Strategic 

       Objective included in the strategic plan.


       OCFO concurs with the process of identifying performance goals for the strategic
       objectives in our strategic plan.

   3.	 Identify the agency official’s title and the organization responsible for the
	
       achievement of each Strategic Objective.


       OCFO concurs with this recommendation. We will include Goal Leaders (as titles only)
       for each strategic objective.

   4.	 Identify which performance goals are Agency Priority Goals.

       OCFO concurs with this recommendation. We will identify which performance goals are
       Agency Priority Goals.

   5.	 Identify performance goals changed or dropped since publication of the latest
       Annual Performance Plan, if such changes were approved by OMB, and the reasons
       for the changes.

       OCFO concurs with this recommendation. We will identify performance goals that were
       deleted or changed since publication of the latest Annual Performance Plan and the
       reasons for the changes.


Thank you for the opportunity to review the draft report. Please let me know if you need
additional information or have any questions regarding our response.
